                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: A08060035
                                                                                11         Page 1 of 1



          This case was initiated based on concerns about potential inappropriate commingling of
          government hnded activities-and lobbying activities by ad NSF-supported organization.'
          Because an audit is ongoing, this case will be closed pending information developed during the
          audit regarding the issue above.




NSF 01G Form 2 (1 1/02)
